WAIVER

Supreme Court of the United States

No. 20-790
Reginald Eric Sprowl v. Mercedes-Benz U.S. International, Inc.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
2 Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

oTam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a,Bar member.
€
Signature MLrch LLow

Date: _ sanvac 1 20)
(Type or print) Name. Picky) L- Lucas

OMs. OMrs. O Miss
Firm Quer wd Forman LL?
Address. Sute 3400, Ship Bwer 4 42.0 Noth goth Street

City & State Bir oninghary, Alabama tip 3S 203
Phone a OS- 4SSs 7 5S2OF

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ee Me, hee Casa has sJory
© Winter, ons North Satbe @\S
Bo minghacn \ Blabama 35203

 

 

 

 

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
